<html>
<title> - NOMINATIONS OF CAROL A. DALTON, ANTHONY C. EPSTEIN, AND HEIDI M. PASICHOW</title>
<body><pre>[Senate Hearing 110-966]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-966
 
   NOMINATIONS OF CAROL A. DALTON, ANTHONY C. EPSTEIN, AND HEIDI M. 
                                PASICHOW

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                 ON THE

   NOMINATIONS OF CAROL A. DALTON, ANTHONY C. EPSTEIN, AND HEIDI M. 
 PASICHOW TO BE ASSOCIATE JUDGES OF THE SUPERIOR COURT OF THE DISTRICT 
                              OF COLUMBIA

                               __________

                             JULY 23, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
44-581                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     3

                               WITNESSES
                        Wednesday, July 23, 2008

Hon. Eleanor Holmes Norton, Delegate of the District of Columbia, 
  U.S. House of Representatives..................................     2
Carol A. Dalton to be Associate Judge, Superior Court of the 
  District of Columbia...........................................     6
Anthony C. Epstein to be Associate Judge, Superior Court of the 
  District of Columbia...........................................     6
Heidi M. Pasichow to be Associate Judge, Superior Court of the 
  District of Columbia...........................................     7

                     Alphabetical List of Witnesses

Dalton, Carol A.:
    Testimony....................................................     6
    Biographical and professional information....................    15
    Responses to post-hearing questions..........................    84
Epstein, Anthony C.:
    Testimony....................................................     6
    Biographical and professional information....................    46
    Responses to post-hearing questions..........................    88
Norton, Hon. Eleanor Holmes:
    Testimony....................................................     2
Pasichow, Heidi M.:
    Testimony....................................................     7
    Prepared statement...........................................    60
    Biographical and professional information....................    62
    Responses to post-hearing questions..........................    89


                    NOMINATIONS OF CAROL A. DALTON,

                        ANTHONY C. EPSTEIN, AND

                           HEIDI M. PASICHOW

                              ----------                              


                        WEDNESDAY, JULY 23, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:37 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The Committee on Homeland Security and 
Governmental Affairs will come to order.
    I want to say good afternoon to our witnesses as well as 
all of you who are present, and welcome our nominees along with 
their family and friends to the Committee today. We are always 
delighted to have the nominees' families present, and I want to 
add my welcome to Peter Flynn, the husband of Judge Dalton; 
Karen and Katherine Epstein; and to Betty and Milton Pasichow 
who are here. Welcome to the hearing.
    Today, the Committee on Homeland Security and Governmental 
Affairs meets to consider the nominations of Carol Dalton, 
Anthony Epstein, and Heidi Pasichow to be Associate Judges on 
the District of Columbia Superior Court.
    The nominees have an impressive range and depth of 
experience. Judge Dalton has been a magistrate judge on the 
Family Court of the D.C. Superior Court since 2002, and prior 
to that she had considerable experience in family law and other 
fields. Mr. Epstein has approximately 30 years of legal 
experience in a variety of areas of law, and he is a partner at 
the law firm Steptoe and Johnson. Ms. Pasichow has worked as a 
prosecutor in the Office of the U.S. Attorney for more than 20 
years, currently investigating and prosecuting cold cases in 
the Homicide Section.
    I am particularly glad to be holding this hearing today. It 
had been delayed due to a technical error in the District of 
Columbia Family Court Act. That Act increased the number of 
judges for the D.C. Family Court, but failed to increase the 
overall cap in D.C. Superior Court Judges. All of the 
nominations before the Committee today have been pending for 
quite some time because the Senate was unable to confirm 
Superior Court nominees as judges retired.
    This spring, Congress enacted legislation, S. 550, which I 
introduced with my good friends Senator Voinovich and Senator 
Lieberman. That Act increased the total number of D.C. Superior 
Court judges to correct the problem, allowing us to move 
forward on these nominations. The fact that each of you is 
sitting here today suggests that you have the patience and 
dedication to make a good judge.
    I would like to yield for a statement from our friend and 
Delegate of the District of Columbia, Eleanor Holmes Norton. 
Delegate Norton has served in the U.S. House of Representatives 
with distinction, and we are happy to welcome her to the 
Committee. I know you have a very tight schedule, so we will 
let you introduce the nominees and then resume our opening 
statements and proceed with the hearing.
    Delegate Norton.

   TESTIMONY OF HON. ELEANOR HOLMES NORTON, DELEGATE OF THE 
      DISTRICT OF COLUMBIA, U.S. HOUSE OF REPRESENTATIVES

    Ms. Norton. I thank you very much, Mr. Chairman, and I 
thank you for your graciousness in observing the House schedule 
as well. And I thank both of you--Senator Akaka and Senator 
Voinovich--for the special and sensitive attention you have 
paid to the District of Columbia, to observing its home rule 
status, and essentially helping the District in so many ways as 
its legislation has come before you, one of which you have just 
cited, Mr. Chairman. And I particularly thank you for taking 
time as we approach the end of the session--a very busy session 
at that--to confirm judges so that we are not left with a very 
busy court without a full complement of judges.
    The bill you spoke about, Mr. Chairman, that returned the 
court to the authorized number was very important for the 
District. What it took to get it through the House meant that 
for some time the District could not fill vacancies as Congress 
always intended, and we are very grateful that these three 
judges are before you now precisely because of that 
legislation, which started here, actually, and then we were 
able to get it through the House.
    Let me thank you as well for the very important work you 
did on the Family Court Division, which was a law that we got 
through by the temporary reduction in judges to the Superior 
Court, but which you have generously brought back to your 
original intention all along.
    Mr. Chairman, you and the Ranking Member have been well 
briefed and have before you all of the background of these 
judges. I will just in very summary fashion indicate by 
introduction who they are.
    In alphabetical order, Carol Dalton comes to you having 
been a magistrate judge, Mr. Chairman, through the very bill 
that enlarged the number of magistrates to the Family Court. 
She has spent her entire career litigating matters involving 
caretakers, children, abused children, indigent children, and 
neglect cases. She is, it seems to me, tailor made for the 
Family Court. As you know, that court requires some time spent, 
some time for each of these judges to spend on Family Court 
matters alone. She is a graduate of the George Washington 
University and the New York Law School.
    Anthony Epstein has strong litigation experience. He has 
been an attorney with the Department of Justice Antitrust 
Division. He has been a Special Assistant U.S. Attorney. His 
distinguished career well prepared him to sit on our Superior 
Court. He is a graduate of Yale Law School and Yale College, 
summa cum laude, Phi Beta Kappa.
    Finally, Heidi Pasichow is at present an Assistant U.S. 
Attorney with the Homicide Section of that division. She knows 
the city well, having litigated matters of the very kind that 
are important before the Superior Court. She is a graduate of 
the American University Law School and the George Washington 
University with distinction, Phi Beta Kappa.
    Let me thank you once again for your consideration of these 
three nominees who, in my judgment, are well qualified to sit 
on the court. And may I indicate that they were all three 
chosen by a home rule process, by residents of the District of 
Columbia. They are themselves residents of the District of 
Columbia. I am fully satisfied with their qualifications, and I 
am pleased and proud to recommend them to you for your 
consideration.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Delegate Norton, and we 
much appreciate your being here and your introducing the 
nominees today. I understand that you have a busy schedule on 
the other side of the Capitol, and I really appreciate your 
coming all the way over here to introduce our nominees. So 
thank you very much again.
    I would like to now ask Senator Voinovich for his opening 
statement.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Senator Akaka. I want to 
extend a welcome to the nominees appearing before us today. We 
appreciate your time and your willingness to serve on the 
District of Columbia Superior Court.
    Judges have the significant responsibilities of protecting 
citizens' rights and liberties, upholding and interpreting the 
law, and equitably resolving disputes. I trust that, if 
confirmed, each of you will fulfill these responsibilities with 
honor, courage, and character befitting the court.
    We have reviewed each of your background questionnaires, 
and I believe all of you are well qualified to serve as an 
Associate Judge for the Superior Court. I just wish that my own 
Court of Common Pleas in Cuyahoga County, Ohio, had the 
qualifications as you have here today. It is just amazing how 
qualified the people are that are being asked to serve here. 
The people of the District are very fortunate to have such 
high-quality nominees for the bench.
    I am not going to go over your resumes. We have already 
done that. I look forward to hearing more about your experience 
and your interest in pursuing public service. And, again, I 
thank each of you for your willingness to serve. I would also 
like to express my appreciation to your families. I know the 
folks that are related to you are very proud that you are being 
nominated for this court, and many of them have made great 
sacrifices over the years so you could be where you are today. 
And many of them will continue to make sacrifices as you carry 
out your responsibilities on the court. And to them, to all of 
you, welcome.
    Senator Akaka. Thank you very much, Senator Voinovich.
    All three nominees have filed responses to a biographical 
and financial questionnaire, answered pre-hearing questions 
submitted by the Committee, and had their financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record, with 
the exception of the financial data, which are on file and 
available for public inspection in the Committee office.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath. Therefore, 
I ask each of you to please stand and raise your right hand. Do 
you swear that the testimony you are about to give the 
Committee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Judge Dalton. I do.
    Mr. Epstein. I do.
    Ms. Pasichow. I do.
    Senator Akaka. Thank you. Let the record note that the 
witnesses answered in the affirmative.
    As I mentioned earlier, each of you have family members 
here with you today. I would like to give each of you the 
opportunity to introduce them or any friends who are here today 
to the Committee before we proceed with your statements. Judge 
Dalton.
    Judge Dalton. Thank you, Mr. Chairman, and I am thrilled 
that my wonderful husband, as you mentioned is here, who has 
been so supportive of me.
    I am also honored that Judge Emmett Sullivan of the U.S. 
District Court and the Chair of the Nominating Commission is 
here.
    I am joined by some of my colleagues who have inspired me 
and supported me through this process. Judge Kramer is here, 
whose spot I applied for. Judge Howze, Judge Irving, and Judge 
McKenna are here, who have been so supportive to me.
    I would also like to recognize my wonderful judicial 
assistant Kelly Benson who, if I am confirmed, will be coming 
with me as my assistant.
    I also have some attorneys who have actually come before me 
and have been my colleagues, so I guess I am doing OK. I have 
Ms. Sharon Singh and Lawrence Spillan.
    I would like to say that my mother, Ann Stephenson, and my 
aunt Marge Kalita could not make it because of health reasons 
due to age, nor could my brother, John Dalton, who is taking 
care of them. But they are here with me in spirit and have been 
very supportive. So thank you.
    Senator Akaka. Thank you for that.
    Mr. Epstein. I am here with my wife, Karen, who has been 
also incredibly supportive to me, and my older daughter Kate, 
who happens to be a graduate student at the Ohio State 
University.
    Senator Akaka. Welcome. Ms. Pasichow.
    Ms. Pasichow. Thank you, Mr. Chairman and Senator 
Voinovich. I am honored to appear here today. I would like to 
acknowledge and thank your staff members for their diligence 
and for their confidence in me during the process. I wish to 
acknowledge and thank Congresswoman Eleanor Holmes Norton for 
her introduction and support of my nomination to the Superior 
Court for the District of Columbia.
    Mr. Chairman, I would like to recognize my parents, Betty 
and Milton Pasichow, whom you mentioned earlier and whom I am 
so proud to have with me here today. I want to thank my older 
brother Bill, who is not able to attend, but who, with my 
parents, gave me confidence and compassion, qualities that have 
come with encouragement and love. My parents guided me in the 
tradition of their parents, my grandparents, who immigrated to 
the United States, whom I was fortunate to know and who were 
hard-working, generous, and respectful. They taught me by 
example, and they are with me every day.
    I want to say with gratitude and humility that I thank the 
Chairman of the District of Columbia Judicial Nomination 
Commission, Judge Emmett Sullivan, who is here today, and 
members of his staff, members of the Nomination Commission who 
supported my professional aspiration to become an associate 
judge on the Superior Court, for the confidence they placed in 
me by sending my name to the White House for consideration.
    I want to thank the President of the United States for 
nominating me for the position and acknowledge with gratitude 
John Smith and Scott Coffina in the White House Counsel's 
Office for their support.
    I am honored by the presence and continuing guidance that I 
receive from the staff of Chief Judge King's chambers. And I am 
moved and gratefully acknowledge the presence of Judge Sylvia 
Bacon, currently a law professor, who is here today, who was a 
distinguished judge on the D.C. Superior Court and who took me 
under her skilled and dedicated wing as her judicial law clerk 
from 1983 to 1985.
    The U.S. Attorney Jeffrey Taylor is here with us, who 
supported my efforts to seek a judgeship and with whom I have 
had the privilege of working; Glenn Kirschner, chief of the 
Homicide Section, who gave me the opportunity to return to 
Superior Court from the Criminal Division; and First Principal 
U.S. Attorney Channing Phillips, whose counsel is unsurpassed 
and whose tenure spanned generations of prosecutors and 
numerous Presidential administrations. I would also like to 
thank the judges who are here and before whom I appeared, who 
have set the highest standards for civility and 
professionalism.
    I am trying to make this brief. I have one more little 
section, and I apologize, but this day is so important to me, 
and I want to make sure that the people who are here understand 
how much I appreciate their support.
    I also acknowledge with affection my dear colleagues from 
the U.S. Attorney's Office, attorneys' support staff and victim 
witness advocates who have supported efforts and who have 
worked tirelessly with victims and witnesses to crimes, to my 
colleagues on the defense bar, to my fellow faculty members at 
the National Institute for Trial Advocacy. I am honored by the 
presence of members of the Metropolitan Police Department, 
including those detectives whose dedication to public service, 
competence, and bravery provide a trusting hand to the 
witnesses and victims of crime in our community. And I would 
especially like to recognize Karen Evon, who is here today. Her 
son was the victim of a violent shooting in a public market 
over 15 years ago. She relied on the system to seek justice and 
closure. Ms. Evon, like so many survivors of crime, has 
inspired me by her courage and faith in the process.
    In large measure due to the support and encouragement of 
all the people I have mentioned, including my dear friends and 
others who have joined me here today, I am humbled to be before 
this Committee for its consideration of my nomination to the 
D.C. Superior Court.
    Thank you, Mr. Chairman.
    Senator Akaka. I can see now the strong support each of you 
have by your introductions of those who are here to witness 
this hearing. And I want to thank you for having them here 
today.
    I look forward to hearing your testimony. Judge Dalton, 
please proceed with your statement.

 TESTIMONY OF CAROL A. DALTON TO BE ASSOCIATE JUDGE, SUPERIOR 
               COURT OF THE DISTRICT OF COLUMBIA

    Judge Dalton. Yes, thank you, Mr. Chairman. I am honored to 
testify before this Committee today. I would also like to thank 
Congresswoman Eleanor Holmes Norton for coming and speaking on 
our behalf.
    I would also like to thank Judge Sullivan and his committee 
for recommending me, and the President for nominating me.
    I would also like to thank the White House staff, including 
Scott Coffina, who has been wonderful through this process. It 
has been 2\1/2\ years, so he has received a number of calls 
from me. [Laughter.]
    And he has been very kind, and the Committee staff members 
as well have been absolutely wonderful and worked very 
diligently. I was shocked during my meeting to see that they 
read many of my orders, but they have been wonderful. And I 
want to thank you for convening this at this very late time. It 
has been my privilege to serve as a magistrate judge for 6 
years, and I can honestly say that it has been the best 
position that I have ever had. And I am still humbled by it.
    So thank you for letting me be here, and one last thing. If 
I forgot to thank Judge Irving for being here--I am not sure I 
did, but he has been a very good friend as well.
    Thank you.
    Senator Akaka. Thank you very much. Mr. Epstein.

TESTIMONY OF ANTHONY C. EPSTEIN TO BE ASSOCIATE JUDGE, SUPERIOR 
               COURT OF THE DISTRICT OF COLUMBIA

    Mr. Epstein. Thank you, Mr. Chairman. I join my fellow 
witnesses in thanking you for giving us this hearing today. I 
agree that the District is fortunate in having its judges 
chosen through the nonpartisan process. I am grateful to Judge 
Sullivan and the Judicial Nomination Commission for 
recommending me to the White House and to the President for 
nominating me. I appreciate the exemplary professionalism of 
your staff throughout this phase of the process. And I want to 
thank Delegate Norton for her kind and generous introduction.
    I also would be remiss if I did not thank you two, Senator 
Akaka and Senator Voinovich, along with Chairman Lieberman, for 
your leadership in increasing the number of judges on the 
Superior Court. As you said, we would not be here today if it 
weren't for that. As the Committee noted in its report, it is a 
hardship to be in limbo for as long as we were, and I am 
grateful the process is coming to an end.
    It would be an honor and a privilege and a dream come true 
for me to serve as an associate judge on the Superior Court. 
The court deals on a daily basis with some of the most serious 
and difficult problems that the District of Columbia faces, and 
it would be an honor to serve with some of the judges who are 
here today on that court and try to resolve those cases on a 
just and equitable basis.
    Thank you.
    Senator Akaka. Thank you very much.
    And now I would like to call on Ms. Pasichow. If you have 
given your statement, fine. Otherwise, you may proceed. 
[Laughter.]

   TESTIMONY OF HEIDI M. PASICHOW \1\ TO BE ASSOCIATE JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Pasichow. I joined the U.S. Attorney's Office and 
experience firsthand each and every day how the judges strive 
to provide access to the justice system to all litigants. 
Outside of the courtroom, I participated in the Office's 
citywide community prosecution effort and its unprecedented 
outreach programs. What I knew before was greatly reinforced; 
that is, if given the opportunity, I would make my life's work 
the challenges and rewards of serving the District of Columbia 
community. It is with profound respect for those on the bench 
where I seek a position, that I would be honored and would 
welcome the opportunity to continue my public service as an 
associate judge on the Superior Court of the District of 
Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Pasichow appears in the Appendix 
on page 60.
---------------------------------------------------------------------------
    Thank you very much.
    Senator Akaka. Well, thank you.
    I will begin with the standard questions this Committee 
asks of all nominees, and I would like each of you to answer 
each question.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Judge Dalton. No, Mr. Chairman.
    Mr. Epstein. No, Mr. Chairman.
    Ms. Pasichow. No, Mr. Chairman.
    Senator Akaka. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Judge Dalton. No, Mr. Chairman.
    Mr. Epstein. No, Mr. Chairman.
    Ms. Pasichow. No, sir.
    Senator Akaka. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted Committee of Congress if you are confirmed?
    Judge Dalton. Yes, Mr. Chairman.
    Mr. Epstein. Yes, Mr. Chairman.
    Ms. Pasichow. Yes, Mr. Chairman.
    Senator Akaka. Well, thank you very much for your answers 
to that.
    My first question is to Judge Dalton. You have practiced 
family law for quite some time. If you are called upon to hear 
cases outside the Family Court, how do you plan to overcome the 
challenge of rapidly developing expertise in other areas of 
law?
    Judge Dalton. I think, Mr. Chairman, that there probably is 
an opening in Family Court, but obviously, I serve at the will 
of the chief judge, and if there weren't, I have a LL.M. in 
tax. I have practiced some civil cases and some criminal cases.
    I am an extremely diligent person, so I can promise you 
that I would never take the bench without having read the 
rules, the statute, and the case law.
    I also am somewhat famous, as my judicial assistant could 
tell you, for hiring what she calls ``The Firm.'' I have many 
interns that work for me and I am constantly giving them 
research assignments to keep me up to date.
    The court also provides two mentors under a new program, 
and so I would work with my mentors. And, also, I think my 
litigation experience--and I have probably done 80 to 100 
trials now and before I came to the bench, and so I think all 
of that put together, I will welcome any challenges, and I can 
assure you that I will serve with the knowledge that I need.
    Senator Akaka. Thank you.
    Mr. Epstein, you have an impressive background and a great 
deal of legal experience but little recent trial experience and 
experience in D.C. courts. Why did you decide to seek this 
position? And why do you believe you will be good at it?
    Mr. Epstein. I sought the position because this is my 
community. This is the city where I live. I have a commitment 
to it. You are correct that I haven't tried a lot of cases 
recently here in Washington, although I should put in a good 
word for the Court of Common Pleas in Canton, Ohio, where I had 
a case that went on for some years, and the judge there was 
absolutely terrific.
    I think it would a wonderful challenge to help the court 
deal with a very long and difficult docket. I have had a varied 
experience on the criminal side, both as a prosecutor and as a 
defense lawyer. And I have represented both plaintiffs and 
defendants in civil cases and in courts that have basically the 
same rules of procedure that the Superior Court does. I have 
tried to use the waiting time I have had productively. When I 
have had the chance, I have stopped by various courtrooms 
around the courthouse here in the District, and I am happy to 
say that what the lawyers and judges were doing all looked 
familiar to me. And I feel confident that I could make an 
effective contribution to the court if I were confirmed.
    Senator Akaka. Well, thank you very much.
    Ms. Pasichow, you have been a prosecutor for nearly--well, 
I guess your entire career. As a judge hearing criminal cases, 
you will have to maintain neutrality and adopt a presumption of 
innocence. Do you feel confident that you will be able to 
fulfill the judge's neutral role?
    Ms. Pasichow. Yes, I do. And I will say that in that 22-
plus-year-period, because I actually first stepped into D.C. 
Superior Court as a law student with the D.C. Law Students in 
Court Program, I did have an opportunity to see throughout my 
career at the U.S. Attorney's Office, each and every day in 
each and every courtroom that I went into, how the judges 
strive to provide justice--whether it is in the criminal 
context, the civil context, landlord-tenant, the whole volume 
of cases--in a full and fair manner. I believe that those 
experiences in that courthouse have guided me. I am committed 
to the characteristics that I have seen; that the courtrooms 
are places that provide a safe and fair forum, and through the 
mentorship that I have received through the judges, qualities 
such as fairness, unbiased presiding over cases, and respect 
for all litigants are really the qualities that I am committed 
to bring to the court if confirmed. Fairness, particularly in 
the criminal justice system, is a characteristic that I have 
learned as an Assistant U.S. Attorney, both on the line and 
also as a supervisor where I have had to balance many competing 
interests and always ensure that the law is upheld.
    Senator Akaka. Thank you. I have further questions that I 
will ask in the second round.
    I will call on Senator Voinovich for his questions.
    Senator Voinovich. Thank you, Mr. Chairman.
    Judge Dalton, you had a legal career in trust and estate 
matters, and then you went over to Family Court. You have been 
nominated for the Superior Court. How are the experiences that 
you have had as a magistrate, do you think, relevant to the job 
you are now seeking and have been nominated to?
    Judge Dalton. Having served on the bench for 6 years, I 
think I have grown as a judge. Obviously, with hindsight after 
the first year when I looked back, I thought about how I had 
changed. It was an awesome responsibility to make decisions 
about families' lives, and I hope I have followed the code. I 
have been independent. I have been unbiased. I have always 
tried to keep my temperament at the appropriate level, and I 
think most importantly also, pretty much everyone knows, and 
the attorneys here could tell you, that I am very conscious, as 
the code notes, of time, starting on time and ending on time, 
so people, including the people that come into the court, can 
get to their jobs or where they need to be.
    I think the 6 years of hearing cases, the litigation 
experience has prepared me for any further challenges.
    Senator Voinovich. Mr. Epstein, following up on Senator 
Akaka's question, from what I understand none of your cases 
have gone to trial in the past 10 years. Of course, that is an 
accomplishment. [Laughter.]
    Given that fact, describe your knowledge of evidentiary 
rules and trial and post-trial procedures. Will go through an 
orientation period.
    Mr. Epstein. Yes, the Court has a training program, a 
training committee, which is----
    Senator Voinovich. You have your old book on evidence, have 
you?
    Mr. Epstein. I got the standard handbook on the D.C. law of 
evidence, Judge Graae's book on evidence. I have had the 
interesting experience of serving for the last 3\1/2\ weeks on 
a grand jury in the District of Columbia in the Superior Court, 
and I have used our lunch breaks and morning and afternoon 
breaks to review that. I don't want to say it is like riding a 
bicycle. I need to refresh my recollection on some of the 
rules, and there are some idiosyncracies of D.C. evidence law 
and D.C. procedure that I need to become familiar with. And I 
will do what I need to do to get up to speed.
    Senator Voinovich. This may be a tough question. How would 
you deal with an attorney that you do not think is doing the 
job that he should be doing for the client?
    Mr. Epstein. That is a hard question. I do not think there 
is any single or simple answer to that question. Sometimes I 
think some lawyers are just hopeless, not to put too fine a 
point on it, and then sometimes the judge, to ensure that 
justice is done, has to roll up his or her sleeves and do the 
research that the lawyer should have done. I do not think the 
sins of the lawyer should necessarily be visited on the client.
    Sometimes I think a quiet word, perhaps off the record, to 
a lawyer can be useful. Obviously, in extreme cases, if the 
lawyer has really fallen down on the job and prejudiced his or 
her client, then judges need to refer lawyers to the D.C. bar 
counsel. There is also a procedure in place in criminal cases 
for appointed lawyers that their performance is reviewed, and 
obviously if I had a concern about a lawyer's performance, I 
would want to call that to the attention of the judges who 
oversee the Criminal Justice Act Panel.
    Senator Voinovich. Good answer.
    Ms. Pasichow, you have been a prosecutor, and one of the 
things that bothered me when I practiced is that so often 
people get on the bench and they lose their humility and, 
sometimes, common sense. I am sure that you have had the 
opportunity over the years to observe many judges. Could you 
tell me the three characteristics that you think reflect the 
best judges that you have had the privilege of dealing with?
    Ms. Pasichow. Thank you for that question, Senator. 
Respect, fairness, and an ability to make a decision: I think 
those three characteristics trump many of the other ones that 
are needed to be an effective and compassionate judge. But 
those would be the three that I would put at the top of my 
list.
    Senator Voinovich. And I am sure you remember how some of 
them treated you---- [Laughter.]
    And the ones you liked better than others.
    Ms. Pasichow. I must say, Senator, that, I was so inspired 
by so many of the judges before whom I appeared throughout my 
entire career. I would like to think that is one of the reasons 
that I was so highly motivated to become a judge in that 
courthouse.
    Senator Voinovich. Well, again, the District is lucky to 
have you. I have been on this Committee now for 10 years. The 
quality of our Judicial nominees I have seen is just 
outstanding, so you must have come in contact with some very 
good people.
    Ms. Pasichow. Yes, I did. Thank you.
    Senator Voinovich. Thank you.
    Senator Akaka. This question is to Judge Dalton and Ms. 
Pasichow. I would like to hear from both of you on the issue 
that I asked Mr. Epstein about why do you want to serve as a 
Superior Court judge? And what particular strengths do you 
believe you will bring to the bench? Judge Dalton.
    Judge Dalton. Mr. Chairman, having served for 6 years as a 
magistrate judge, as I said, I think it has been the best 
position of my career. I have had the ability to make 
decisions, hopefully helping families. I am constantly humbled 
by that opportunity.
    If I am confirmed, I think that serving as an associate 
judge would help me to grow as a judge, help me to meet new 
challenges and serve in different areas of the court that I 
could not serve on now. For instance, even if I stayed in 
Family Court, I cannot do juvenile trials now, or I cannot do 
mental health cases. So I believe that to grow as a judge, if I 
am confirmed, that would be very helpful to me.
    I think for the past 6 years what I have learned as a judge 
that is important is to treat everyone that comes before me 
with respect. Even having seen some of the most heinous abuse 
of children, having sat on the bench, I have seen the abusers 
and realized that they are human beings, albeit fragmented and 
fragile human beings. And so I have learned to treat everyone 
with respect. I am still humble about the job that I have, and 
so I think there is no fear that I will ever not take it 
seriously or be honored by it.
    Senator Akaka. Ms. Pasichow.
    Ms. Pasichow. Chairman thank you for the question. I would 
like to, if confirmed, further my public service beyond the 
criminal justice system to all litigants who would be before a 
court for which I have, as I indicated, so much respect. I 
actually feel like I grew up there in the courthouse and have 
been in and out of that courthouse over the past 24-plus years, 
and have been able to not just be a passive observer, but a 
real participant in a process that I truly believe in, whether 
it is the criminal justice system or the civil process. But I 
have seen the court at work, and throughout that time I have 
also seen the court's progress in providing access to the court 
system, education to the community, programs such as the 
community courts. I think Judge Kramer is here--she was 
earlier--who went out into the community--I am very committed 
to the community, and I think those types of programs are 
programs that I would like to participate in so that the 
community understands that there is actual access to justice. 
And then once inside the courtroom, I agree with Judge Dalton 
that an environment of respect and balanced judgment would 
weigh in favor of people leaving the courthouse feeling like 
they have been able to express their views and feel a sense of 
closure.
    I hope that I would be informed by all of the experience I 
have had in that courthouse and bring that experience to the 
court.
    Senator Akaka. Thank you.
    I would like to ask this question to all three of you, and 
I would like to hear what you see as the biggest challenge that 
you will face as a Superior Court judge. And how do you plan to 
address that challenge? Judge Dalton.
    Judge Dalton. Mr. Chairman, thank you for the question. I 
think there are many challenges that I will face as a judge. 
One of the biggest challenges is something that I think Chief 
Judge Rufus King keeps reminding us of: Justice delayed is 
justice denied. And so with a heavy volume of cases, the 
pressure is now on the court for us to issue our findings 
within a day, if we can, of trial. So that would be one of the 
challenges that I face, is to timely issue my findings.
    I think that there are a number of changes that the court 
has made over the years with our Family Court Act, and we are 
in the second phase of our strategic plan. And under the aegis 
of Chief Judge King, we have accomplished a lot. But one of the 
most important things that he is looking at is moving our 
cases, also balancing the type of personalities that the court 
is now experiencing. We have a change in the community. We have 
a lot of wealthy, technologically proficient people moving into 
D.C. that are coming to the court. But at the same time, I 
think we have a diverse community of people that speak 
different languages. And so I think as a judge, we have to be 
culturally competent. We have to learn how to keep up with the 
technology, but also how to speak to people who are not 
familiar with the technology and to make them understand the 
orders that we are issuing.
    So I think those are the biggest challenges I will face.
    Senator Akaka. Mr. Epstein.
    Mr. Epstein. I agree with Judge Dalton. I think the hardest 
part of the job is that there are tough cases and so many of 
them. This is a busy trial court in a major metropolitan area, 
and I think the challenge is how do you give each case the 
individual attention that it deserves, and at the same time 
keep up with your docket. I do not think there is any simple 
answer to that. Hard work is clearly one of them. I think you 
have to have some judgment about what is important in each case 
reasonably quickly and try to focus on the key issues as best 
you can.
    Senator Akaka. Thank you. Ms. Pasichow.
    Ms. Pasichow. Chairman, I would take my cues from Judge 
Dalton, who has the experience here, and I certainly concur 
with what Mr. Epstein has said. My experience in the courthouse 
has indicated that one of the most difficult things that I have 
observed is how to manage expectations; that is, that the party 
comes into the courtroom and has the trial date set, and then 
is discouraged when that trial date is not really a firm trial 
date, when because of the volume of cases and because of other 
issues that come up that sometimes they become disappointed. 
And I think it would be a great challenge to attempt in the 
best way possible to adjust expectations and ensure that there 
is some reliance on a calendar in a system that works so that 
lawyers and parties can come into the courtroom and know what 
to expect at that particular time.
    Senator Akaka. Thank you.
    My next question is to Judge Dalton. From your experience 
practicing family law and working with the Family Court, what 
do you view as the greatest difficulties facing the Family 
Court and the D.C. Trial and Family Services Agency?
    Judge Dalton. That is a very good question. I would be 
remiss if I didn't say that thanks to Congress for the Family 
Court Act and under the leadership of Judge Satterfield, Judge 
Josey-Herring and Chief Judge Rufus King, we have made 
remarkable strides in Family Court from its appearance, making 
families more comfortable, to our timeliness, to our giving 
closure to families either through reunification or adoption.
    I think the challenges that we face--throughout the entire 
court there are challenges in the sense that we need mental 
health services and substance abuse services. I know the court 
is constantly looking for grants to have programs like our 
Family Treatment Court. And it will be a challenge to continue 
to expand them.
    I know in Criminal Court, we have just started a Mental 
Health Court, and it would be my privilege to serve on a 
committee to start a Juvenile Mental Health Court. But I think 
the biggest challenge is to help the community deal with 
substance abuse and mental health issues in order to make the 
families whole.
    But we have done such a large amount of work after the 
Family Court Act, from going out into the community, to going 
to the schools, to help solve truancy problems by working with 
children and parents, to hearing cases, sometimes every week 
until we get it right, until we help the families. We have 
challenges, but we certainly are moving forward very rapidly.
    Senator Akaka. Mr. Epstein, you have represented 
corporations primarily while practicing at law firms for more 
than 25 years. Many of the people who will come before you in 
Superior Court face economic disadvantage and have limited 
access to information about the legal system.
    Do you feel you will be able to relate well to the diverse 
backgrounds of those who will come before you as a judge?
    Mr. Epstein. I certainly hope to. I should add, you are 
right, I have represented mostly companies, but I have 
represented a number of individuals over the years.
    Maybe the best way to answer your question is this: For the 
past 6 months, I have served as a volunteer in the Self-Help 
Center of the Family Court. As Judge Dalton said, the Family 
Court recognizes that a substantial majority of the people who 
appear before it do not have lawyers. They do not know their 
way around the courthouse. They do not know where to begin. And 
the court created this Self-Help Center where they can come in 
and get practical advice. And I have tried to volunteer there 
at least once a week for a 3-hour stint each week. And I think 
I have been able to connect with at least some of the people 
there. I am happy to keep agreeing with Judge Dalton. You know, 
there is a real mix of people who come before the Superior 
Court. Some of them are hard to relate to, in part because the 
whole process is just so intimidating and frightening to them. 
Particularly in the Family Court, I think one of the 
obligations of the judge, to the extent that he or she can, is 
to put them at their ease so that they feel that their problem 
is being understood and addressed.
    Senator Akaka. Ms. Pasichow, similarly, I would like to 
hear your views on the greatest criminal justice challenges 
facing the District of Columbia today.
    Ms. Pasichow. Well, Chairman Akaka, I can speak from my 
experience. I think that some of the greatest challenges that 
we have had, particularly in the U.S. Attorney's Office, are 
issues that involve fear, fear of retaliation, fear of being 
involved in the system, fear of cooperating with law 
enforcement, fear of overzealous prosecution, and the fear of 
heavy-handed judges. I have had a first-hand view working with 
the community, with witnesses and victims of crime, and 
advocates in our office to attempt to get into the community 
and bring the community into the system. I think the most 
rewarding experience that I have had was when individuals who 
get involved in the process, and there is a detective here who 
has worked tirelessly with me to attempt to do this, that when 
one individual says that he or she have a more positive 
perception of the criminal justice system, I feel like that is 
one step closer to where we need to go and where we need to be.
    The reality of intimidation in this community is striking, 
the reality of it, not just the perception that people do not 
feel safe when they come forward to work within the system, at 
least the criminal justice system. I am hoping that with each 
step forward we move people into the process so that there is 
more confidence in the system.
    Senator Akaka. Well, thank you. I want to thank you all. 
There are no further questions at this time. There may be 
additional questions for the record which we will submit to you 
in writing.
    The hearing record will remain open until the close of 
business tomorrow for Members of this Committee to submit 
additional statements or questions that they may have. It is my 
hope that the Committee will vote in the near future and that 
your nominations will be considered soon by the full Senate. 
And I just want you to know that I will make every effort to 
expedite that.
    I want to thank you again for your statements, your 
sincerity, your humility, and your respect. I just have a 
feeling that you will make great judges. But we will do our 
part here and try to get this through and to have it confirmed 
as soon as we can.
    So, with that, this hearing is adjourned.
    Ms. Pasichow. Thank you, Mr. Chairman.
    Judge Dalton. Thank you, Mr. Chairman.
    Mr. Epstein. Thank you.
    [Whereupon, at 3:30 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 44581.001

[GRAPHIC] [TIFF OMITTED] 44581.002

[GRAPHIC] [TIFF OMITTED] 44581.003

[GRAPHIC] [TIFF OMITTED] 44581.004

[GRAPHIC] [TIFF OMITTED] 44581.005

[GRAPHIC] [TIFF OMITTED] 44581.006

[GRAPHIC] [TIFF OMITTED] 44581.007

[GRAPHIC] [TIFF OMITTED] 44581.008

[GRAPHIC] [TIFF OMITTED] 44581.009

[GRAPHIC] [TIFF OMITTED] 44581.010

[GRAPHIC] [TIFF OMITTED] 44581.011

[GRAPHIC] [TIFF OMITTED] 44581.012

[GRAPHIC] [TIFF OMITTED] 44581.013

[GRAPHIC] [TIFF OMITTED] 44581.014

[GRAPHIC] [TIFF OMITTED] 44581.015

[GRAPHIC] [TIFF OMITTED] 44581.016

[GRAPHIC] [TIFF OMITTED] 44581.017

[GRAPHIC] [TIFF OMITTED] 44581.018

[GRAPHIC] [TIFF OMITTED] 44581.019

[GRAPHIC] [TIFF OMITTED] 44581.020

[GRAPHIC] [TIFF OMITTED] 44581.021

[GRAPHIC] [TIFF OMITTED] 44581.022

[GRAPHIC] [TIFF OMITTED] 44581.023

[GRAPHIC] [TIFF OMITTED] 44581.024

[GRAPHIC] [TIFF OMITTED] 44581.025

[GRAPHIC] [TIFF OMITTED] 44581.026

[GRAPHIC] [TIFF OMITTED] 44581.027

[GRAPHIC] [TIFF OMITTED] 44581.028

[GRAPHIC] [TIFF OMITTED] 44581.029

[GRAPHIC] [TIFF OMITTED] 44581.030

[GRAPHIC] [TIFF OMITTED] 44581.031

[GRAPHIC] [TIFF OMITTED] 44581.032

[GRAPHIC] [TIFF OMITTED] 44581.033

[GRAPHIC] [TIFF OMITTED] 44581.034

[GRAPHIC] [TIFF OMITTED] 44581.035

[GRAPHIC] [TIFF OMITTED] 44581.036

[GRAPHIC] [TIFF OMITTED] 44581.037

[GRAPHIC] [TIFF OMITTED] 44581.038

[GRAPHIC] [TIFF OMITTED] 44581.039

[GRAPHIC] [TIFF OMITTED] 44581.040

[GRAPHIC] [TIFF OMITTED] 44581.041

[GRAPHIC] [TIFF OMITTED] 44581.042

[GRAPHIC] [TIFF OMITTED] 44581.043

[GRAPHIC] [TIFF OMITTED] 44581.044

[GRAPHIC] [TIFF OMITTED] 44581.045

[GRAPHIC] [TIFF OMITTED] 44581.046

[GRAPHIC] [TIFF OMITTED] 44581.047

[GRAPHIC] [TIFF OMITTED] 44581.048

[GRAPHIC] [TIFF OMITTED] 44581.049

[GRAPHIC] [TIFF OMITTED] 44581.050

[GRAPHIC] [TIFF OMITTED] 44581.051

[GRAPHIC] [TIFF OMITTED] 44581.052

[GRAPHIC] [TIFF OMITTED] 44581.053

[GRAPHIC] [TIFF OMITTED] 44581.054

[GRAPHIC] [TIFF OMITTED] 44581.055

[GRAPHIC] [TIFF OMITTED] 44581.056

[GRAPHIC] [TIFF OMITTED] 44581.057

[GRAPHIC] [TIFF OMITTED] 44581.058

[GRAPHIC] [TIFF OMITTED] 44581.059

[GRAPHIC] [TIFF OMITTED] 44581.060

[GRAPHIC] [TIFF OMITTED] 44581.061

[GRAPHIC] [TIFF OMITTED] 44581.062

[GRAPHIC] [TIFF OMITTED] 44581.063

[GRAPHIC] [TIFF OMITTED] 44581.064

[GRAPHIC] [TIFF OMITTED] 44581.065

[GRAPHIC] [TIFF OMITTED] 44581.066

[GRAPHIC] [TIFF OMITTED] 44581.067

[GRAPHIC] [TIFF OMITTED] 44581.068

[GRAPHIC] [TIFF OMITTED] 44581.078

[GRAPHIC] [TIFF OMITTED] 44581.073

[GRAPHIC] [TIFF OMITTED] 44581.074

[GRAPHIC] [TIFF OMITTED] 44581.075

[GRAPHIC] [TIFF OMITTED] 44581.076

[GRAPHIC] [TIFF OMITTED] 44581.077

[GRAPHIC] [TIFF OMITTED] 44581.070

[GRAPHIC] [TIFF OMITTED] 44581.071

[GRAPHIC] [TIFF OMITTED] 44581.072

                                 <all>

</pre></body></html>
